                          Office of Inspector General
                          Legal Services C orporation



Inspector General
Jeffrey E. Schanz

3333 K Sneer, NW, 3rd Floor
Washington, DC 20007·355 8
202.29 5.1660 (p) 202.337.6616 (f)
www. oig.lsc.gov




          August 3, 2012


          Douglas E. Gershuny
          Executive Director
          South Jersey Legal Services, Inc.
          745 Market Street
          Camden, NJ 08102

          Dear Mr. Gershuny:

          Enclosed is the Office of Inspector General's (OIG) final report of our audit on Selected
          Internal Controls at South Jersey Legal Services (SJLS) . The OIG considers the
          proposed action to update your program's accounting manual as responsive to the
          recommendation. However, the recommendation will remain open until the revised
          accounting manual has been issued and implemented and the OIG is notified in writing .

          We thank you and your staff for the cooperation and assistance you provided us.

          Sincerely,



           effrey E. Schanz
          Inspector General


          Enclosure




                                                                                      =ILLSC
                                                                                      II     Amcric.>.', rutn., For Equal Jg,riq
   


        LEGAL SERVICES CORPORATION

        OFFICE OF INSPECTOR GENERAL




 REPORT ON SELECTED INTERNAL CONTROLS


SOUTH JERSEY LEGAL SERVICES, INC.


                 RNO 331020




              Report No. AU12-07

                 August 2012


                www.oig.lsc.gov
          


                                             TABLE OF CONTENTS

INTRODUCTION .......................................................................................... 1

BACKGROUND ........................................................................................... 1

OBJECTIVE ................................................................................................. 2

SCOPE AND METHODOLOGY ................................................................... 2

OVERALL EVALUATION ............................................................................. 3

AUDIT FINDINGS ........................................................................................ 4

    Written Policies and Procedures ............................................................. 4
    Recommendation .................................................................................... 5
    Grantee Management Comments ........................................................... 5

OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS .............. 5

APPENDIX I – GRANTEE MANAGEMENT COMMENT
 


                                   INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at South Jersey Legal Services, Inc.
(SJLS or grantee) related to specific grantee operations and oversight. The on-site
fieldwork was conducted from March 19 through 23, 2012. Documents reviewed
pertained to the period January 1, 2011 through December 31, 2011. Our work was
conducted at the grantee’s administrative office in Camden, New Jersey and at LSC
headquarters in Washington, DC.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee “…is required
to establish and maintain adequate accounting records and internal control procedures.”
The Accounting Guide defines internal control as follows:

      [T]he process put in place, managed and maintained by the
      recipient’s board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition;
      2. reliability of financial information and reporting; and
      3. compliance with regulations and laws that have a direct and
         material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee “must rely upon
its own system of internal accounting controls and procedures to address these
concerns” such as preventing defalcations and meeting the complete financial
information needs of its management.


                                   BACKGROUND

SJLS is a non-profit corporation organized for the purpose of providing legal assistance
in non-criminal proceedings or matters to persons financially unable to afford legal
assistance in the southern New Jersey area. The grantee serves the counties of
Atlantic, Burlington, Camden, Cape May, Cumberland, Gloucester, and Salem. SJLS
services, among others, the following cases: adoption, bankruptcy, community
economic development, consumer, custody, dissolution of marriage, domestic violence,
education, elder law, employment, health, housing, public benefits, termination of
parental rights, wills and estates.




                                           1 
 
 



                                      OBJECTIVE

The overall audit objective was to assess the adequacy of selected internal controls in
place at SJLS as the controls related to operations and oversight, including program
expenditures, fiscal accountability, and compliance with selected LSC regulations. The
audit evaluated selected financial and administrative areas and tested the related
controls to ensure that costs were adequately supported and allowed under the LSC Act
and LSC regulations. In addition, the OIG examined regulatory policies and SJLS
processes to assess whether controls were designed in a manner expected to ensure
compliance with the LSC Act and the reviewed LSC regulations. However, reaching
conclusions regarding compliance with any specific regulation was not an objective of
the audit.


                            SCOPE AND METHODOLOGY

To accomplish the objective, controls over disbursements, salary advances, cost
allocation, contracting, internal management reporting and budgeting, and property
inventory were reviewed and tested to ensure the controls were adequately designed
and operating as intended. Controls over client trust fund accounting were reviewed,
but not tested. To obtain an understanding of the internal controls over these areas,
policies and procedures were reviewed, including manuals, guidelines, memoranda,
and directives setting forth current practices. SJLS officials were interviewed to obtain
an understanding of the internal control framework and to determine their knowledge
and understanding of the processes in place. We assessed the reliability of computer
generated data provided by the grantee by reviewing source documentation for the
entries selected for review. We determined that the data were sufficiently reliable for
the purposes of this report.

To review and evaluate internal controls, the grantee’s internal control system and
processes were compared to the guidelines in the Fundamental Criteria of an
Accounting and Financial Reporting System contained in the LSC Accounting Guide.

To test the controls and the appropriateness of expenditures and the existence of
adequate supporting documentation, disbursements from a judgmentally selected
sample of employee reimbursement files and vendor files were reviewed. The sample
represented 5.59% of the $2,410,217 disbursed for expenses other than payroll during
the period January 1, 2011 to December 31, 2011 and consisted of 80 transactions
totaling $134,738. To assess the appropriateness of expenditures, we reviewed
invoices, vendor lists, and general ledger details. The appropriateness of those
expenditures was evaluated on the basis of the grant agreements, applicable laws and
regulations, and LSC policy guidance.

To evaluate internal controls over internal management reporting and budgeting, the
grantee’s system and processes were compared to those detailed in the Fundamental

                                           2 
 
 


Criteria contained in LSC’s Accounting Guide. Controls over salary advances and
employee reimbursements were reviewed by examining collective bargaining
agreements and personnel policies and practices and testing a judgmentally selected
sample of employee reimbursements as part of the disbursement testing. To evaluate
controls over client trust fund accounting, we interviewed appropriate program
personnel and examined related policies and procedures.

To review internal controls over compliance with specific LSC regulations (45 CFR Parts
1610, 1612 and 1617), we examined written compliance policies and procedures,
including applicable LSC mandated recordkeeping requirements, reviewed applicable
documentation and reports, and interviewed staff to determine if the controls were
designed in a manner to ensure compliance with the provisions of LSC regulations
reviewed.

This review was limited in scope and not sufficient for expressing an opinion on the
entire system of grantee internal controls over financial operations or compliance with
LSC regulations.

On-site fieldwork was conducted from March 19 to 23, 2012. Documents reviewed
pertained to the period January 1, 2011 to December 31, 2011. Our work was
conducted at the grantee’s central administrative office located in Camden, New Jersey
and at LSC headquarters in Washington, DC.

The audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit
objectives.

                              OVERALL EVALUATION

Internal controls reviewed and tested at SJLS were adequate as the controls related to
specific grantee operations and oversight, including program expenditures, fiscal
accountability, and compliance with selected LSC regulations. However, some controls
and practices need to be formalized and documented. Controls over the regulations
reviewed were designed in a manner expected to ensure compliance with selected
provisions of the LSC Act and regulations.

Grantee disbursements tested were adequately supported, allowable, and appear to be
properly allocated to LSC funds. The grantee’s current practices involving internal
management reporting and budgeting, contracting, cost allocation, salary advances and
property inventory were not documented in the Accounting Procedures Manual (APM).
However, our test of the controls indicated that these practices were generally in
accordance with the Fundamental Criteria contained in the LSC Accounting Guide.


                                          3 
 
 


Internal controls over compliance with LSC regulations (45 CFR Parts 1610, 1612 and
1617), were adequately designed. Written compliance policies and procedures,
including those based on applicable recordkeeping requirements, were in accordance
with the respective LSC regulation. Controls over the regulations reviewed were
designed in a manner expected to ensure compliance with selected provisions of the
LSC Act and regulations.


                                                               AUDIT FINDING

Written Policies and Procedures

Operating practices for some areas reviewed were not documented. While SJLS’s
internal control practices were generally adequate, the grantee’s Accounting
Procedures Manual (APM) did not contain the written policies and procedures
necessary to comply with the Fundamental Criteria contained in the LSC Accounting
Guide. The APM generally documents the policies and procedures to be followed by
SJLS staff in meeting the objectives and criteria of LSC and its other funding sources.
However, the APM did not detail the written policies and procedures relating to the cost
allocation methodology, contracting, salary advances, property inventory and fixed
assets, and management reporting and budgeting. Our tests of SJLS practices used for
these activities did not uncover any deficiencies.
SJLS’s management stated that drastic budgetary reductions from major funding
sources over the past three years have caused the elimination of nearly 50 percent of
their workforce. As a result, updates of current policies and procedures have been
temporarily shelved. However, at the time of our audit, grantee management stated that
after receiving the OIG report, an updated APM will be presented to the Board for
approval.
To maintain an adequate internal control structure, each grantee must develop a written
accounting manual that describes the specific procedures to be followed by the grantee
in complying with the Fundamental Criteria contained in the LSC Accounting Guide,
which requires that financial controls be established to safeguard program resources.
The Government Accountability Office1 in its guidance on internal control states all
transactions and other significant events need to be clearly documented, and that the
documentation requirements should appear in management directives, administrative
policies, or operating manuals.

An updated and complete APM helps SJLS ensure that proper controls are followed.
The APM also serves as a vehicle to communicate controls to all staff and ensures that
staff members understand their roles and responsibilities. Without adequate written
policies and procedures in place, transactions may be initiated and recorded that violate
management intentions, or possibly laws or grant restrictions.

                                                            
1
    GAO-01-1008G – Internal Control Management and Evaluation Tool (8/01), Page 43.

                                                                     4 
 
 


Recommendation

The Executive Director should update SJLS’ Accounting Procedures Manual by
preparing written policies and procedures that document current practices in use and
include all processes required by LSC’s Accounting Guide.

Grantee Management Comments.                  Grantee management agreed with the
recommendation to revise and update its accounting manual. A copy of the SJLS’
response to the draft report is incorporated into this report as Appendix I.

OIG Evaluation of Grantee Management Comments. The OIG considers grantee
management’s planned action to update its accounting manual as responsive to the
recommendation. The recommendation will remain open until the OIG receives written
notification that the revised accounting manual has been approved and issued.




                                         5 
 
